No. 20-7612
IN THE

Supreme Court of the United States
MICHAEL D. JOHNSON,

Petitioner,

v.
INDIANA,
Respondent.
On Petition for a Writ of Certiorari
To The Supreme Court of Indiana
PROOF OF SERVICE

I, Benjamin Miller, counsel for amici curiae 93 Law Professors, hereby certify
that on this 26th day of April, 2021, undersigned counsel electronically filed the
Brief of Amici Curiae 98 Law Professors in Support of Petitioner Michael D.
Johnson with the Clerk of the United States Supreme Court. Undersigned counsel
further certifies that on this day, I sent to this Court one copy (pursuant to
Guidance Concerning Clerk’s Office Operations, Nov. 13, 2020), of the foregoing via
U.S. Mail. Undersigned counsel further certifies that I serviced one copy of the
foregoing via U.S. Mail and electronic mail upon:
Daniel S. Harawa
Washington University School of Law
One Brookings Dr.
Campus Box 1120
St. Louis, MO 63130
dharawa@wustl.edu
Counsel for Petitioner
Courtney Stanton
Office of the Indiana Attorney General
Indiana Government Center South
302 W. Washington St., 5th Floor
Indianapolis, IN 46204
Courtney.Stanton@atg.in.gov
Counsel for Respondent

2
I further certify that all parties required to be served have
been served.
/s/ Benjamin Miller
Benjamin Miller
Wren Collective, LLC
3212 Northlake Pkwy. NE, #450036
Atlanta, HA 30345
(512) 537-3248
ben.miller@wrencollective.com
Counsel for Amici Curiae
98 Law Professors
April 26, 2021

